PROOF OF SERVICE
1, Joanne Taylor-Cotten, do swear or declare that on this date, June 2, 2021 , as
required by Supreme Court Rule 29 1 have
served the enclosed PETITION FOR A WRIT OF CERTIORARI on each party to the
above proceeding or that party's counsel, and on every other person required to be
served, by depositing an envelope containing the above documents in the United States
mail properly addressed to each of them and with first-class postage prepaid, or by
delivery to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:

Loren L. Alikhan Esq, Assistant Attorney general
Personnel and labor Relations
441 4th Street N.W. Washington D.C. 20001

Laskeka Brown Esq. general Counsel
Office of Employee Appeals
955 L Enfant Plaza S.W. Suite 2500 Washington D.C. 20024

I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 2,.

The foregoing document was acknowledged
before me this j^f_day of
t
Notary Publi

2021__

5

EUISHIKKIM
NOTARY PUBLIC
PRINCE GEORGE'S COUNTY
MARYLAND
MY COMMISSION EXPIRES 10-02-2023

(Signature)

